No. 21-230

In the

Supreme Court of the United States
WILLIAM HERMAN VIEHWEG,
Petitioner,

v.

SIRIUS XM RADIO, INC.,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT

BRIEF IN OPPOSITION

HELEN M. MAC MURRAY
Counsel of Record

BENJAMIN A. SIGALL

MAC MURRAY & SHUSTER LLP
6525 West Campus Oval, Suite 210
New Albany, OH 43054
(614) 939.9955
hmacmurray@mslawgroup.com
Counsel for Respondent

i
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6,
Respondent Sirius XM Radio, Inc., states the
following: Sirius XM Radio Inc. is a subsidiary of
Sirius XM Holdings, Inc., a publicly held company.
Additionally,
Liberty
Media
Corp.
owns
approximately 78% of Sirius XM Holdings Inc.

RELATED PROCEEDINGS


Viehweg v. Sirius XM Radio, Inc., No. 1703140, U.S. District Court for the Central
District of Illinois. Judgment entered March
23, 2020.



Viehweg v. Sirius XM Radio, Inc., No. 20-2166,
U.S. Court of Appeals for the Seventh Circuit.
Judgment entered April 13, 2021.

ii
TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT ............. i
RELATED PROCEEDINGS ........................................ i
TABLE OF CONTENTS ............................................. ii
TABLE OF AUTHORITIES ...................................... iv
OPINIONS BELOW .................................................... 1
STATEMENT OF THE CASE .................................... 2
REASONS FOR DENYING THE PETITION............ 5
SUMMARY OF ARGUMENT..................................... 5
ARGUMENT ............................................................... 5
I.

AS AN INITIAL MATTER, RULE 15.2
COMPELS RESPONDENT TO
ADDRESS MISSTATEMENTS IN
THE PETITION ............................................. 5

II.

PETITIONER’S QUESTION
PRESENTED IS VAGUE AND
CONFUSING ................................................. 7

III. THIS CASE IS A POOR VEHICLE
FOR CONSIDERATION OF
PETITIONER’S OBJECTIONS .................... 8
CONCLUSION .......................................................... 15

iii
APPENDIX:
Order of the United States District Court for the
Central District of Illinois, Springfield Division,
entered March 20, 2020 ..................................... App. 1
Order of the United States District Court for the
Central District of Illinois, Springfield Division,
entered November 26, 2018 ............................... App. 3

iv
TABLE OF AUTHORITIES
CASES
Bordenkirker v. Hayes, 434 U.S. 357 (1978) .......... 6, 7
United States v. Goodwin, 457 U.S. 368 (1982) ......... 7
STATUTES AND RULES
28 U.S.C. §1654 ........................................................... 7
Fed. R. Civ. P. 5(b)(2)(E) ............................................. 6
U.S. Sup. Ct. R. 10 ............................................ passim
U.S. Sup. Ct. R. 14.4 ............................................... 5, 7
U.S. Sup. Ct. R. 15.2 ................................................... 5

1
CITATION TO THE OFFICIAL AND
UNOFFICIAL REPORTS OF THE OPINIONS
AND ORDERS BELOW
Viehweg v. Sirius XM Radio, Inc., 2021 U.S. App.
LEXIS 15151 (May 20, 2021) (petition for rehearing
en banc denied)
Viehweg v. Sirius XM Radio, Inc., 843 Fed. Appx.
811, 2021 U.S. App. LEXIS 10489, 2021 WL 1387888
(April 13, 2021) (opinion of appellate court affirming
summary judgment)
Viehweg v. Sirius XM Radio, Inc., 2020 U.S. Dist.
LEXIS 49096, 2020 WL 1430606 (March 20, 2020)
(opinion of district court granting summary
judgment)
Viehweg v. Sirius XM Radio, Inc., 2019 U.S. Dist.
LEXIS 7568, 2019 WL 233218 (January 16, 2019)
(opinion of district court regarding a motion to
compel)
Viehweg v. Sirius XM Radio, Inc., 2018 U.S. Dist.
LEXIS 199312, 2018 WL 6169214 (November 26,
2018) (opinion of district court regarding pertinent
motion to compel)
Viehweg v. Sirius XM Radio, Inc., 2018 U.S. Dist.
LEXIS 139584, 2018 WL 3954845 (August 17, 2018)
(opinion of district court regarding a motion to
compel)

2
Wiehweg [sic] v. Sirius XM Radio Inc., 2018 U.S.
Dist. LEXIS 78655, 2018 WL 2182659 (May 10,
2018) (district court opinion on motion for sanctions)
Viehweg v. Sirius XM Radio, Inc., 2018 U.S. Dist.
LEXIS 76435, 2018 WL 2100585 (May 7, 2018)
(district court opinion on motion to stay proceedings
and compel arbitration)
Viehweg v. Sirius XM Radio, Inc., 2018 U.S. Dist.
LEXIS 1883, 2018 WL 305318 (January 3, 2018)
(district court opinion on motion and amended
motion to strike portions of Answer)
STATEMENT OF THE CASE
Petitioner, William Herman Viehweg, has a
distant cousin named William Harry Viehweg
(“Harry”).
Harry lives with his wife, Bridget
Viehweg, about 30 miles from Petitioner, both in
Illinois (Bridget and Harry are collectively the
“Married Viehwegs”). Harry and Petitioner were
both customers of Respondent’s Sirius XM Radio
service, with subscriptions tied to their vehicles.
Unfortunately, on May 4, 2016, Petitioner’s
account and Harry’s account were unintentionally
mixed-up; one of Respondent’s vendors consolidated
the accounts after calling Bridget to renew a
subscription. Initially, Petitioner, Respondent, and
the Married Viehwegs were unaware of the mix-up,
which led to a series of problems over the next few
months, as each side was affecting (and affected by)
the now-consolidated account.

3
The Petitioner filed the underlying suit as a pro
se litigant against Respondent, as the sole
defendant, on just one theory. He claimed that
Respondent had defamed him to Bridget during
phone calls she made while trying to sort out
concerning peculiarities occurring with what she
thought was her husband’s account. After discovery,
Petitioner failed to demonstrate any evidence of
defamation by Respondent.
The district court
granted summary judgment, and the court of
appeals affirmed.
Petitioner litigated the case vigorously prior to
summary judgment. Along the way, as rulings did
not go his way, he became disgruntled with
Respondent, its attorneys, and the judge. He filed
numerous requests for various sanctions. One of his
grievances was an allegation that Respondent had
somehow improperly biased the court against him,
which the judge denied. The instant Petition is an
outgrowth of that allegation.
In particular, the Petition focuses heavily on
three statements made variously by the Married
Viehwegs and Respondent in their oppositions to a
motion to compel. The motion to compel was filed by
Petitioner in connection with a third-party subpoena
that he had issued to the Married Viehwegs. They
had opposed the motion to compel by, inter alia,
asserting a common interest privilege with
Respondent. The basis for asserting the common
interest privilege was that they feared Petitioner
might sue them as well.
Ultimately the judge determined that the ambit
of the underlying subpoena did not encompass the
documents Petitioner was seeking to compel in the

4
first place, and therefore denied the motion without
deciding whether a common interest privilege
existed. Petitioner did not simply attempt another
subpoena to ripen the common interest question, but
continued to complain during the litigation about the
fact that common interest had been asserted.
He now brings a petition for writ of certiorari
arguing that the judge should have sanctioned
Respondent for allegedly biasing the court against
him (despite the district court’s denial that the same
occurred).
Petitioner cites none of the considerations
outlined by Supreme Court Rule 10. Specifically, he
identifies no conflict among any lower courts or
question of federal law decided by the circuit court in
a way that conflicts with any decision of this Court.
Nor were the judicial proceedings about which he
now complains, i.e., litigation of a motion to compel
and assertions of privilege during discovery, a
departure from the accepted and usual course of
proceedings that calls for an exercise of the Court’s
supervisory power. Rather, Petitioner seemingly
seeks for the Court to establish an unspecified new
rule of law that was not considered by the courts
below.
Moreover, Rule 10 also weighs against certiorari
because the foundation of the Petition implicitly
depends on an assumption that the district court
made an erroneous factual finding when it concluded
that it harbored no bias against Petitioner.

5
REASONS FOR DENYING THE PETITION
SUMMARY OF ARGUMENT
In addition to the fact that the Petition does not
implicate the considerations of Supreme Court Rule
10 (discussed passim), there are three reasons why
the Court should deny the Petition. First, the
Petition contains several misstatements of fact and
law. Second, Petitioner’s articulation of the question
presented is too unclear, and fails to meet the
standards of Supreme Court Rule 14.4. Third, even
if the Court were inclined to reformulate an
acceptable question presented, this case is a bad
vehicle for several reasons, including but not limited
to the fact that Petitioner was not injured or
prejudiced in his right of self-representation.
ARGUMENT
I. AS AN INITIAL MATTER, RULE 15.2
COMPELS RESPONDENT TO ADDRESS
MISSTATEMENTS IN THE PETITION.
Pursuant to Supreme Court Rule 15.2,
Respondent’s brief in opposition should address
perceived misstatements of fact or law in the
Petition that may bear on issues that would be
before the Court if certiorari were granted, or else
face possible waiver. The Rule also admonishes
counsel that they have an obligation to the Court to
point out perceived misstatements in the brief in
opposition. Respondent has identified several such

6
perceived misstatements in the Petition, as set forth
in this section.
Page 2 of the Petition indicates that Fed. R. Civ.
P. 5(b)(2)(E) authorizes a pro se litigant to choose not
to consent to electronic service. In fact, that Rule is
silent about the ability of pro se litigants to refuse
electronic service.
Page 3 of the Petition states that Respondent
“admits that it knowingly consolidated accounts,”
which resulted in “unauthorized transactions.”
Petitioner further claims that “[t]o resolve the
situation” Respondent, essentially, attempted no
corrective action and “unilaterally terminated
service and contact with the Petitioner.” Petitioner
does not point to support in the record for this
characterization. While there was undoubtedly a
mix-up of identities in this case that resulted in
account issues, Respondent rejects the suggestion
that any confusion or problem was caused by it
intentionally. Additionally, Respondent rejects the
idea that it unilaterally terminated contact with
Petitioner, but that in fact he ended his final call
with customer service by cursing at the
representative.
Pages 3-4 of the Petition contain a transcript of a
phone call between Respondent’s customer service
provider and Bridget Viehweg. The Petition states
that the transcript of that telephone conversation
“ends with” the quoted dialogue. In fact, there is
significant additional dialogue which Petitioner
omitted.
Page 9 contains a quote which Petitioner
attributed to Bordenkirker v. Hayes, 434 U.S. 357,
363 (1978). The quoted language does not appear

7
anywhere in Bordenkirker. Instead, the quotation
comes from United States v. Goodwin, 457 U.S. 368,
372 (1982). Moreover, Petitioner claims that the
quoted language pertains to interpretation of 28
U.S.C. §1654.
In fact, both Bordenkirker and
Goodwin address prosecutors pursuing heightened
criminal charges after failed plea bargaining in
criminal cases, not §1654 or civil litigation.
Throughout the Petition, Petitioner contends that
Respondent attacked his character by virtue of his
status as a pro se litigant, but he offers scant support
from the record. Respondent disputes that it argued
or implied in the proceedings below that pro se
litigants are somehow inherently of lesser moral
character or disputed their right to represent
themselves. Nor has Respondent taken any action
seeking to prevent this Petitioner from representing
himself in this litigation, and in fact routinely
cooperated to accommodate him in various ways.
II. PETITIONER’S QUESTION PRESENTED
IS VAGUE AND CONFUSING
Supreme Court Rule 14.4 provides that “the
failure of a petitioner to present with accuracy,
brevity, and clarity whatever is essential to ready
and adequate understanding of the points requiring
consideration is sufficient reason for the Court to
deny a petition.” In this case, Petitioner’s leviathan
articulation of the question presented fails to meet
this standard. Specifically, his question presented is
a sentence of over 160 words and at least 17 clauses.
Moreover, the difficulty with Petitioner’s question
presented is not limited to the grammatical

8
challenge of wading through it. Rather, it touches
on a laundry list of substantive topics that are
drawn far more broadly than is necessary or
appropriate for a question to this Court.
A satisfactorily articulated question is necessary
to “understanding of the points requiring
consideration.” Petitioner’s failure to meet this
burden for both Respondent and the Court should
result in denial of the Petition.
Additionally, the complexity of Petitioner’s
question presented creates difficulties in fairly
evaluating whether he has preserved the issues
below. That difficulty is an unreasonable problem
with the question presented itself.
III. THIS CASE IS A POOR VEHICLE FOR
CONSIDERATION
OF
PETITIONER’S
OBJECTIONS
Even if the Court was inclined to formulate a
digestible question presented, this case remains a
poor vehicle for such consideration for three reasons.
First, Petitioner’s arguments rely heavily on
attributing responsibility to Respondent for
statements that he concedes were not made by
Respondent, but were actually made by non-parties
to this litigation, thereby rendering the case illsuited for this Court to consider.
Second, Petitioner appears to misunderstand the
nature of several occurrences and arguments made
in the proceedings below. A fuller understanding
would reveal that the facts of the case simply do not
present many of the issues Petitioner wishes to

9
raise. In short, the slights he perceives are largely
conjured without an adequate basis in the record to
conclude occurred.
Third, and most importantly, at the end of
lengthy litigation, the district court specifically
addressed Petitioner’s claim that Respondent had
biased the court against him in some way. Judge
Richard Mills was unequivocal that no such bias
occurred. So even if Respondent had attempted to
improperly bias the court by virtue of Petitioner
being a pro se litigant – which Respondent did not do
– this case is a poor vehicle, if not moot, because the
judge made it clear Petitioner suffered no bias.
Petitioner has pointed to nothing in the record to
contradict the judge. Moreover, Petitioner cites no
filing or action taken by Respondent or anyone else
to try and prevent him from representing himself
throughout the entirety of litigation.
Therefore, this case is a poor vehicle to consider
the bounds of fair treatment by opposing counsel
towards pro se litigants, because Petitioner provides
nothing from the record to show he was subjected to
any injury, judicial bias, or limitation of his right to
proceed without an attorney.
A. RESPONDENT IS NOT RESPONSIBLE FOR
STATEMENTS BY NONPARTIES, AND, IN
ANY EVENT, THOSE STATEMENTS WERE
NOT IMPROPER
The Petition relies heavily on three statements
from district court filings submitted regarding the
Married Viehwegs’ assertion of common interest
privilege in response to a subpoena issued to them

10
by Petitioner. Although the district court ultimately
ruled that the dispute over common interest was
moot because Petitioner’s subpoena did not actually
demand the materials he later sought in his motion
to compel (Resp’t App., p. 6-8), these statements are
at the core of Petitioner’s argument that Respondent
biased the court against him. Page 10 of the Petition
specifically lists the statements:
1) “Mr. Viehweg is a sophisticated pro se litigant
who has initiated at least ten other lawsuits in
addition to the present action.”
2) “Mr. Viehweg has lodged more than one writ of
certiorari with the Supreme Court of the United
States.”
3) “[A]nyone subpoenaed by this Plaintiff would be
understandably
concerned
about
any
involvement.”
However, Respondent did not make statements 1
and 2. Instead, counsel for the Married Viehwegs,
Mark Bradford of the law firm Duane Morris, made
these comments. Moreover, none of the statements
disparage pro se litigants in general, nor Petitioner’s
pro se status specifically.
Petitioner claims that the statements “have no
possible legal merit regarding any possible legal
issue in support of a claim of common interest.” Yet
the relevance is obvious. Petitioner, unlike most pro
se individuals, has a history of being a litigious
person, which is relevant to the fear of litigation
with him that the Married Viehwegs were asserting
in support of their claim of a common interest
privilege.

11

Therefore, this case is a poor vehicle to consider
bias against pro se litigants generally, because the
statements upon which Petitioner relies were 1)
largely made by non-parties, and 2) made for reasons
separate and apart from his pro se status.
B. PETITIONER
MISUNDERSTANDS
SOME
PROCEEDINGS AND ARGUMENTS BELOW
Petitioner’s frustration may stem from some
misunderstanding of the proceedings and arguments
Respondent made below. In addition to failing to
appreciate the relevance of his litigiousness to the
Married Viehwegs’ claim of a common interest
privilege (discussed above), he repeatedly contended
that some improper motive is apparent from the
statements and litigation activities cataloged in the
Petition. In fact, when viewed dispassionately and
in context, those statements and activities are fairly
unremarkable.
Unfortunately, Petitioner sees
inferences and significances that are not
substantiated by the statements or litigation
activities that he cites.
Petitioner distrusts
Respondent and simply superimposes improper
motives (as he did on the district court judge when
rulings did not go his way). For example, he
contends:
1) Respondent “clearly infer[ed] bad personal
character and meritless pleadings due to
Petitioner’s exercise of his right of selfrepresentation.” (Emphasis added) (Pet. 10)

12
2) The statements “have no possible legal merit in
support of a claim of common interest.” (Pet. 10)
3) Respondent “presented character evidence
against the [p]ro se Petitioner over twenty years
old.” (Pet. 13)
4) That Respondent had sought “legal protection
from the Petitioner’s personal exercise of his
rights and privileges, including the very same
rights to seek redress in the federal courts, to
appeal, and to petition for a writ of certiorari.”
(Pet. 13)
5) Respondent committed “unsanctioned oppression
based upon [his] assertion of the right of selfrepresentation.” (Pet. 15)
6) Respondent “implied that his pleadings are
inherently meritless and for improper purpose.”
(Pet. 8)
In fact, none of the above statements are borne
out by the statements or litigation activities cited in
the Petition.
Respondent offered no character
evidence in this case. The plain reading of the
material Petitioner cites fails to support his
“inference” that Respondent suggested being a pro se
litigant means something untoward about a person.
Petitioner cites no motion or argument by
Respondent that attempted to prevent or “oppress”
him from proceeding in the case without an attorney
(because none exists). If anything, Respondent took
extra steps and incurred added expense to
accommodate Petitioner, who refused to use email or
other routine electronic communication methods to
ease the burden of litigation.

13
Respondent did imply that Petitioner’s claims
were meritless – hence the successful motion for
summary judgment – but not because he was a pro
se. If Petitioner believes his status as a pro se
somehow makes it per se improper to imply that his
particular claims are meritless, that is surely a
misapprehension of the adversarial nature of
litigation.
The above disconnects between Petitioner’s
perception, compared to an objective interpretation
of the innocuous evidence he cites, make this case a
poor vehicle for the Court to visit the obligations to a
pro se in civil litigation. This is especially so where
none of the hallmark certiorari considerations of
Supreme Court Rule 10 are implicated. If the Court
wishes to visit issues surrounding pro se civil
litigation, it should wait for a case where the record
demonstrates that respondent clearly took unseemly
action against the petitioner, there is a conflict
between courts of appeals or with a decision of this
Court, or where the circuit court below has
incorrectly stated or announced an important rule of
law.
C. PETITIONER WAS NOT SUBJECTED TO ANY
JUDICIAL BIAS OR LIMITED IN HIS RIGHT
TO PROCEED PRO SE
On March 20, 2020, the same day that summary
judgment was granted in Respondent’s favor, Judge
Mills of the U.S. District Court for the Central
District of Illinois issued an order denying
Petitioner’s motion to recuse him and to vacate a
previous order to seal certain filings. (Resp’t App., p.

14
1-2) The order was specifically aimed at Petitioner’s
contention that he had been subjected to some bias
because he was a pro se litigant. Judge Mills
unequivocally explained that there was no bias:
The [Petitioner] appears to believe that
the Court harbors a bias against him as a
pro se party. The [Petitioner] is incorrect.
After 35 years on the federal bench and
over 50 years as a state or federal judge,
the Court has presided over hundreds, if
not thousands, of cases which have
involved pro se parties. The Court does not
have any animus against a pro se party in
general or the [Petitioner] in particular.
An adverse ruling is not a proper basis
for seeking recusal. (Resp’t App., p. 2)
Petitioner points to nothing in the record that
contravenes the judge’s direct statement on precisely
the issue of whether there was bias against him as a
pro se litigant. Nor is it the responsibility of this
Court to engage in a fact-finding expedition in
search of support for Petition’s naked speculation.
Furthermore, even if the Court uncovered some
conflicting evidence, Rule 10 is clear that “certiorari
is rarely granted where the asserted error consists of
erroneous factual findings.” Engaging in an analysis
of conflicting evidence to determine whether there
was bias would be tantamount to reviewing for
erroneous factual findings. Additionally, even if
there had been some minor latent bias, the
proceedings upon which the Petition focuses (e.g.,
litigation of discovery disputes and privilege) were

15
routine and ordinary; not of the type – as
contemplated by Rule 10 – that depart so far from
the accepted and usual course of judicial proceedings
as to call for exercise of the Court’s supervisory
power.
Finally, no one at any stage of this litigation
attempted to prevent Petitioner from representing
himself. Respondent filed no motion attempting to
require Petitioner to retain counsel.
Petitioner
identifies nothing in the record to substantiate his
insinuation that Respondent tried to stop Petitioner
from the exercise of his “rights to seek redress in the
federal courts, to appeal, and to petition for writ of
certiorari.” (Pet. 13) Thus, this case is a poor
vehicle for the Court to explore the boundaries of a
pro se litigant’s rights to self-representation because
Petitioner’s rights in that regard were objectively not
impaired.
CONCLUSION
The Petition for a writ of certiorari should be
denied.
Respectfully submitted,
HELEN M. MAC MURRAY
Counsel of Record
BENJAMIN A. SIGALL
MAC MURRAY & SHUSTER LLP
6525 West Campus Oval, Suite 210
New Albany, OH 43054
(614) 939.9955
hmacmurray@mslawgroup.com
Counsel for Respondent

No. 21-230

In the

Supreme Court of the United States
WILLIAM HERMAN VIEHWEG,
Petitioner,

v.

SIRIUS XM RADIO, INC.,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT

APPENDIX

HELEN M. MAC MURRAY
Counsel of Record

BENJAMIN A. SIGALL

MAC MURRAY & SHUSTER LLP
6525 West Campus Oval, Suite 210
New Albany, OH 43054
(614) 939.9955
hmacmurray@mslawgroup.com
Counsel for Respondent

TABLE OF CONTENTS
Order of the United States District Court for the
Central District of Illinois, Springfield Division,
entered March 20, 2020 ..................................... App. 1
Order of the United States District Court for the
Central District of Illinois, Springfield Division,
entered November 26, 2018 ............................... App. 3

App. 1
IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF ILLINOIS
SPRINGFIELD DIVISION
WILLIAM HERMAN VIEHWEG,
Plaintiff,
v.

Case No. 17-3140

SIRIUS XM RADIO, INC.,
Defendant.
ORDER
RICHARD MILLS, United States District Judge:
Pending before the Court is the Plaintiff’s
combined motion to recuse and to vacate a February
20, 2019 Order sealing the Plaintiff’s response to the
Defendant’s motion for summary judgment and
various exhibits thereto.
The Plaintiff takes issue with the Court’s Text
Order granting the Defendant’s motion to file certain
documents under seal without first affording the pro
se Plaintiff an opportunity to respond. In its motion,
the Defendant requested that certain exhibits
containing what it alleged were trade secrets,
proprietary information and other confidential
information be sealed.
Because the Clerk’s Office is unable to seal
individual pages within a group exhibit, the Court
directed that the entire document—the Plaintiff’s
response to the motion for summary judgment along

App. 2
with the supporting exhibits--be sealed. The Court
granted the motion the day after it was filed.
The Plaintiff appears to believe that the Court
harbors a bias against him as a pro se party. The
Plaintiff is incorrect. After 35 years on the federal
bench and over 50 years as a state or federal judge,
the Court has presided over hundreds, if not
thousands, of cases which have involved pro se
parties. The Court does not have any animus against
a pro se party in general or the Plaintiff in
particular.
An adverse ruling is not a proper basis for
seeking recusal. See Herndon v. Housing Auth. of
South Bend, 670 F. App’x 417, 419 (7th Cir. 2016)
(noting that “unfavorable rulings alone rarely suffice
to establish judicial bias or misconduct”).
That would appear to be particularly true on a
relatively minor matter such as a motion to seal. In
its motion, the Defendant provided ample support
for its argument as to why certain documents should
be sealed.
The Court did not believe that a response from
the Plaintiff was necessary.
Ergo, the Plaintiff’s combined motions for the
recusal of the undersigned and to vacate the Order
sealing D/E 125 and all subsequent Orders of the
undersigned [d/e 131] are both DENIED.
ENTER: March 20, 2020
FOR THE COURT:
/s/ Richard Mills
Richard Mills
United States District Judge

App. 3
IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF ILLINOIS,
SPRINGFIELD DIVISION
WILLIAM HERMAN VIEHWEG,
Plaintiff,
v.

No. 17-cv-3140

SIRIUS XM RADIO, INC.,
Defendant.
OPINION
TOM SCHANZLE-HASKINS, U.S. MAGISTRATE
JUDGE:
This matter comes before the Court on Plaintiff
William Herman Viehweg’s Combined Motions to
Compel Non-Partys (sic) William Harry Viehweg and
Bridget Viehweg to Produce Subpoenaed Documents
(d/e 99) (Motion 99) and Defendant Sirius XM
Radio’s Combined Response to Plaintiff’s Combined
Motions to Compel Non-Partys [SIC] William Harry
Viehweg and Bridget Viehweg to Produce
Subpoenaed Documents and Motion to Strike and
Motion for Attorney’s Fees (d/e 103) (Motion 103)
(collectively Motions). For the reasons set forth
below, the Motions are DENIED.

App. 4
BACKGROUND
Plaintiff alleges claims against Defendant Sirius
XM Radio, Inc. (Sirius) for defamation. Plaintiff
claims that Sirius defamed Plaintiff in a telephone
conversation or conversations with Bridget Viehweg
on June 10, 2016. See Second Amended Complaint
(d/e 83). During discovery, on September 6, 2018,
Plaintiff served subpoenas (Subpoenas) on Bridget
Viehweg and her husband William Harry Viehweg
(Bridget and Harry) to appear and be deposed and to
bring documents to the deposition. The Subpoenas
commanded Bridget and Harry each to bring
documents:
relating to accounts and subscriptions you
had with Sirius XM Radio just prior to May
4, 2016.
relating to any changes to above said
accounts made on or about May 5, 2016.
relating to any and all communications you
had with Sirius XM Radio since June 7,
2016.
relating to any and all communications you
had with Plaintiff William Viehweg since
June 7, 2016.
relating to any and all communications you
had with any police department regarding
Siriux (sic) XM Radio with the Plaintiff,
William Viehweg, on, or about, June 10,
2016.

App. 5
Said documents include emails, notes, and
memorandum.
Plaintiff’s Urgent Motion to Compel Deponents’
Appearance and Continue Subpoenas for Bridget
Viehweg and William Harry Viehweg to October 5,
2018 (d/e 91), attached Subpoenas.1
On September 27, 2018, Sirius deposed Plaintiff.
On September 28, 2018, Sirius’ attorney sent a letter
to Plaintiff that included a transcript of the June 10,
2016 telephone conversation between a Sirius
representative and Bridget Viehweg. The letter
indicated that Sirius’ attorney sent a copy of this
letter to Bridget and Harry’s attorney. Motion 103,
at 3-4, and Exhibit A, September 28, 2018 Letter.
On October 5, 2018, Plaintiff deposed Bridget
and Harry. At that time, Bridget and Harry
produced responsive documents in their possession.
During the depositions, Bridget and Harry indicated
that they had seen the transcript that accompanied
the September 28, 2018 Letter. Bridget and Harry
evidently saw the transcript during a preparation
meeting with their attorney. Bridget and Harry did
not produce the September 28, 2018 Letter or the
transcript in response to the Subpoenas.
Plaintiff now asks the Court to compel Bridget
and Harry to produce the following:
The transcript provided by the Defendant,
documents of all communications between
[Bridget and Harry’s] attorney and the
Defendants, and any and all other
documents
(including
digital)
of
Viehweg incorporated the Subpoenas into the Motion by
reference. Motion 99, at 1.
1

App. 6
communications between [Bridget and
Harry’s] attorney, and the Defendant not
heretofore produced.
Motion 99, at 3 (¶¶ 8 and 9). Sirius asks the Court to
strike the Motion and award the amount of attorney
fees incurred by Bridget and Harry and Sirius to
respond to Motion 99.
ANALYSIS
Plaintiff asks the Court to order Bridget and
Harry to produce documents that the Subpoenas did
not ask them to produce. The Subpoenas commanded
them to produce documents, “relating to any and all
communications you had with Sirius XM Radio since
June 7, 2016.” Bridget and Harry produced those
documents. Motion 99 asks for documents related to
communications between their lawyer and Sirius.
The Subpoenas did not ask for these documents. The
Court will not compel their production.
Plaintiff argues that the Subpoenas’ command
encompassed their attorney’s communications with
Sirius. The Court disagrees. Bridget and Harry are
not parties and the Subpoenas are not Rule 34
requests for production of documents. Fed. R. Civ. P.
34. Rule 34 requests encompass documents in a
party’s possession, custody, and control, but Rule 45
subpoenas do not. Compare Fed. R. Civ. P. 34(a)(1)
with Fed. R. Civ. P. 45(a)(1)(D); see Hobley v. Burge,
433 F.3d 946, 950 (7th Cir. 2006) (Rule 34
possession, custody, and control language does not
apply to non-parties). The Subpoenas do not
command Bridget and Harry to produce their

App. 7
documents containing attorney’s communications.
The Court will not compel them to do so.
Furthermore, it is unclear that Bridget and
Harry have control of their attorney’s files. Their
attorney has indicated that he has an independent
work product claim to these documents. See
Response to Plaintiff’s Combined Motion to Compel
by Respondents William Harry Viehweg and Bridget
Viehweg (d/e 102), at 6. As such, he may have an
independent interest in privacy in these documents
that may negate Bridget and Harry’s control over
them. See Hobley, 433 F.3d at 950 n.3.
Plaintiff argues in his Reply that Bridget and
Harry waived any claim of privilege. The Court
disagrees. As explained above, the Subpoenas did
not command production of their attorney’s
communications. Therefore, Bridget and Harry did
not, and do not now, need to assert any privilege
related to those communications. The matter of
privilege is not at issue. Motion 99 is denied.
Sirius asks the Court to strike Motion 99
pursuant Federal Rule of Civil Procedure 12(f). Rule
12(f) applies to pleadings. A motion is not a pleading.
Fed. R. Civ. P. 7(a) (listing the pleadings allowed in
federal court). The Court will not strike Motion 99.
Sirius also asks the Court to order Plaintiff to
pay attorney fees as a sanction for filing Motion 99.
The Court may order sanctions, including an award
of attorney fees, on a party that fails to take
reasonable steps to avoid imposing undue burden or
expense on a person subject to a subpoena. Fed. R.
Civ. P. 45(d)(1). The Court will not sanction Plaintiff.
He attempted unsuccessfully to extend the
Subpoenas to documents not covered by them, but
the Court, in its discretion, does not find that a

App. 8
sanction is appropriate at this time under Rule
45(d)(1).
THEREFORE, IT IS ORDERED that Plaintiff
William Herman Viehweg’s Combined Motions to
Compel Non-Partys (sic) William Harry Viehweg and
Bridget Viehweg to Produce Subpoenaed Documents
(d/e 99) and Defendant Sirius XM Radio’s Combined
Response to Plaintiff’s Combined Motions to Compel
Non-Partys [SIC] William Harry Viehweg and
Bridget Viehweg to Produce Subpoenaed Documents
and Motion to Strike and Motion for Attorney’s Fees
(d/e 103) are DENIED.
ENTER: November 26, 2018
s/ Tom Schanzle-Haskins
TOM SCHANZLE-HASKINS
UNITED STATES MAGISTRATE JUDGE

